Supreme CouU
FILED

.:

JUN04 2019
OFFICE OF THE 0LEK

No.

IN THE SUPREME COURT OF THE UNITED STATES

QIHIJI HUANG
Petitioner,
V.

AJIT VARADARAJ PAl
Respondent.
APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
To the Honorable John G. Roberts, Jr., Chief Justice of the United States
Supreme Court and Circuit Justice for the District of Columbia Circuit

Qihui Huang, Applicant Petitioner
-

P.O Box 34014
Bethesda Maryland 20827
Phone:

240-423-0406

Email:

qhh@hotmail.com

1

1

'

.

To the Honorable John G. Roberts, Jr., Chief Justice of the United States
Supreme Court and Circuit Justice for the District of Columbia Circuit:
Applicant-Petitioner (hereinafter Petitioner), pro Se, respectfully requests for
a 60

-

day extension of time to file her petition for writ of certiorari to the United

States Supreme Court. Sup. Ct. R.13.5.
BACKGROUND
The order of the United States Court of Appeal for the District of Columbia
Circuit was entered on January 30, 2019 (case No: 17-5290), see attached Exhibit
A. A timely petition for rehearing and rehearing en bane was denied by the United
States Court of Appeal for the District of Columbia Circuit on April 16, 2019, see
attached Exhibit B. Petition's time to petition for writ of certiorari in the U.S.
Supreme Court expires on July 15, 2019. This application is being filed more than
10 days before that date. Copies of the orders in the District of Columbia Circuit
are attached hereto, in Exhibits A and B. The jurisdiction of this Court is invoked
under 28 U.S.C. ยง 1254 (1). Petitioner files lawsuits against Respondent's
intentional discriminations and retaliations at workplace.
REASONS of EXTENSION IS JUSTIFIED
"The specific reasons why an extension of time is justified" Sup.Ct. R.13.5
are as follows:
1.

Petitioner is a pro se litigant. She has no professional legal training and

background. She had no any experience to file a document at U.S. Supreme Court
in all her life before. She needs many many times to study rules and laws, which a
lawyer took a few years to learn. The opposing party is the chairman of federal
government agent and represented by the federal legal professional teams.
Petitioner is in bad health conditions, an old (more than 67 years old), and
weak woman. Respondent intentionally discriminated and retaliated against
Petitioner and injured her healthy. When she works on court documents,
Petitioner's blood pressures promptly and un-controllably rise to life-threaten high.
She could not continually work on it. Petitioner has been involved in actions and
law suits against Respondent for more than four and half (4.5) years to seek legal
redress in federal courts and more. Petitioner's health has been deteriorated and in
bad condition.
Petitioner's another lawsuit has occupied much or most of her times. See
Huang v Pai, 1:18-cv-02969-CKK, U.S. District Court for the District of
Columbia. She has a court document due on 6/19/2019, and concentrates working
on it.
Additionally, Petitioner's mother is 95 years old now, with health problems.
Her mother lives in a senior housing at the People's Republic of China. Petitioner
considers or hopes that she could have a chance or a break time of her lawsuits, for
her going to China visiting her 95 years old mother.

3

CONCLUSION
For the foregoing reasons and good cause shown, for considerations of her
health and more, Petitioner needs additional 60 days to file her petition for writ of
certiorari. Wherefore Petitioner respectfully requests Honorable Chief Judge that
an order be entered extending her time to petition for writ of certiorari on or before
September 13, 2019.
Respectfully submitted,
Qihui Huang, M.S. al)k A,
Applicant / Petitioner, Pro Se
P.O. Box 34014,
Bethesda Maryland 20827
(240) 423-0406
qhh otmaiLcom

โข
Dated: June 4, 2019

4

_

